No. ____________

IN THE

KELLEY KELLER,

Petitioner,
v.
CHRISTIAN PFEIFFER, WARDEN,

Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
CUAUHTEMOC ORTEGA
Federal Public Defender
ANDREA A. YAMSUAN*
Andrea_Yamsuan@fd.org
Deputy Federal Public Defender
321 East 2nd Street
Los Angeles, California 90012-4202
Telephone: (213) 894-2854
Facsimile: (213) 894-0081
Attorneys for Petitioner
*Counsel of Record

Petitioner, Kelley Keller, by his undersigned counsel, asks leave to file the
attached Petition for Writ of Certiorari to the United States Court of Appeals for the
Ninth Circuit without prepayment of costs and to proceed in forma pauperis. The
Office of the Federal Public Defender was appointed as counsel for Mr. Keller in the
United States District Court for the Central District of California under the
Criminal Justice Act, 18 U.S.C. ยง 3006A(b).
This motion is brought pursuant to Rule 39.1 of the Rules of the Supreme
Court of the United States.

Respectfully submitted,
CUAUHTEMOC ORTEGA
Federal Public Defender

DATED: May 5, 2021

By:/s/ Andrea A. Yamsuan
ANDREA A. YAMSUAN*
Deputy Federal Public Defender
Attorneys for Petitioner
*Counsel of Record

1

